                            CLOSEOUT FOR M-93070038

       On July 16, 1993, OIG received an e-m




proposals that could have been construed as an official NSF decision.

       OIG contacted the complainant who provided OIG with a copy of the subject's letter and
additional information. OIG reviewed relevant NSF policy and interviewed appropriate NSF
personnel for clarification of that policy. Finally, OIG contacted the subject.

        With respect to the first allegation, the subject's letter included information about the
total number of proposals submitted and ultimately awarded by the program in two separate
proposal consideration cycles that included the candidate's two awards. OIG determined that
the information provided by the subject in the letter was publicly available and that no breach
of confidentiality had occurred.

       With respect to the second allegation, the subject stated in the letter that one of the
candidate's proposals had been awarded but, because the NSF processing of the award had not
been completed, the institution had not been officially notified. Program directors are strongly
urged to avoid making any statements concerning possible funding of pending proposals that
might be misunderstood by PIS or institutions. However, they are permitted to unofficially
inform PIS of their recommendations for such funding. OIG discussed this issue with the subject
who told OIG that she understood that her comments could have been construed as an official
NSF position concerning the funding of the proposal and she was more careful now in what she
said. Although the subject's written statement was inappropriate, OIG determined that the issue
was not serious enough to warrant any further action.

       In addition to the allegations from the complainant, OIG observed that the subject's letter
was printed on official NSF letterhead and that the letter included information pertaining to the
candidate's NSF history as a reviewer for the subject's program. With respect to the
information in the subject's letter concerning the candidate's experience as an NSF reviewer,
OIG learned that the type of information provided in the letter was general in nature and could


                                           Page 1 of 2                                   M93-38
                             CLOSEOUT FOR M-93070038

have been obtained through a Freedom of Information Act request.

      The subject explained that, at the time she wrote the letter, she was relatively new at
NSF. She said that, since that time, she had attended a conflict of interest (COI) meeting for
NSF program directors where she learned that her use of NSF letterhead was improper.

        The subject told OIG that she had made a mistake in using NSF letterhead for non-
official business. The subject explained that, following the COI meeting, she had initiated
discussions with new program officers about the proper use of NSF letterhead and she has
avoided any further improper use herself. Because the subject was relatively new to NSF when
she used the NSF letterhead and because she now understands that her use of the letterhead for
non-official NSF business was improper, OIG determined that the issue was not serious enough
to warrant any further action and that our discussion with the subject satisfactorily resolved the
matter.

       OIG discussed with the subject the need to be extremely careful when providing
information about reviewers. OIG concluded that the subject had not breached the
confidentiality of the NSF peer review process.

       This inquiry was closed and no further action will be taken in this case.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                          Page 2 of 2
